         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL


                                        Catalyst for Improving the Environment


Audit Report




       EPA Should Continue Efforts to
       Reduce Federal Advances and
       Federal Special Accounts
       Report No. 10-P-0093

       March 31, 2010
Report Contributors:	            Paul Curtis
                                 Meg Hiatt
                                 Denise Patten
                                 Robert Evans
                                 Kevin Ross
                                 Sheila May




Abbreviations

CFC          Cincinnati Finance Center
EPA          U.S. Environmental Protection Agency
GL           General Ledger
IA           Interagency Agreement
OCFO         Office of the Chief Financial Officer
OIG          Office of Inspector General
ORBIT        OCFO Reporting and Business Intelligence Tool
OSWER        Office of Solid Waste and Emergency Response
SA           Special Account
                       U.S. Environmental Protection Agency 	                                            10-P-0093
                                                                                                     March 31, 2010
                       Office of Inspector General


                       At a Glance
                                                                          Catalyst for Improving the Environment


Why We Did This Review               EPA Should Continue Efforts to Reduce
Our purpose was to determine         Federal Advances and Federal Special Accounts
whether the U.S. Environmental
Protection Agency (EPA)              What We Found
effectively manages funds
advanced from federal agencies       We found that a $1.1 million advance from the U.S. Capitol Police remained
under interagency agreements         open because an accounting adjustment had not been completed. The Agency
(Advance IAs) and federal
                                     recorded the adjustment in December 2009. In addition, we found three federal
special accounts (SAs). The
                                     SAs that included incorrectly recorded receipts and/or expenditures totaling
objectives of our review were to
determine: (a) EPA’s policies,       about $2.5 million as of February 2009. The Agency corrected $2 million
procedures, and practices for        during the audit in February and April 2009.
managing amounts advanced
from federal agencies; and (b) the   EPA issued Superfund Special Account Guidance on July 16, 2002. The
current balances of advances         guidance provided accounting procedures for recording and tracking special
from federal agencies that could     account funds. However, that guidance does not address spending federal
potentially be used in lieu of       versus non-federal special account funds. Without clear guidance, programs
appropriated funds.                  expended non-federal funds before federal funds when both SA funds were
                                     available. As a result, amounts advanced by other federal agencies remained
Background                           outstanding after the project was completed and some SA account receipts
                                     and/or expenditures remain misclassified. This included $579,126 in receipts
EPA receives advance funding         and expenditures for the Johnny Cake Road Farm site being incorrectly
from federal sources through         recorded as non-federal. Outstanding federal SAs and misclassified SA funds
Advance IAs and Superfund SAs.       complicate EPA’s efforts to reconcile and reduce trading partner differences.
Advance IAs and SAs are
components of intragovernmental
transactions, which occur            What We Recommend
between EPA and its federal
trading partners. Approximately      We recommend that the Office of the Chief Financial Officer record the
$60 million in Advance IAs and       $579,126 in SA funds on the Johnny Cake Road Farm site in the correct fund,
$28 million for federal SAs          and request the Office of Solid Waste and Emergency Response and the
remained outstanding as of           regional Superfund program offices to verify that special account receipts and
September 30, 2009.                  expenditures are recorded in the proper fund code. The Agency concurred with
                                     our findings and recommendations.

For further information, contact
our Office of Congressional,
Public Affairs and Management
at (202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2010/
20100331-10-P-0093.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                         March 31, 2010

MEMORANDUM

SUBJECT:	 EPA Should Continue Efforts to Reduce Federal Advances and
          Federal Special Accounts
          Report No. 10-P-0093


FROM:          Melissa M. Heist
               Assistant Inspector General for Audits

TO:	           Barbara Bennett
               Chief Financial Officer


This is our report on the audit of advances from federal agencies under interagency agreements
and federal special accounts, conducted by the Office of Inspector General (OIG) of the U.S.
Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $320,000.

Action Required
In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Paul Curtis
at 202-566-2523 or curtis.paul@epa.gov, or Meg Hiatt at (513) 487-2366 or
hiatt.margaret@epa.gov.
EPA Should Continue Efforts to Reduce                                                                                         10-P-0093
Federal Advances and Federal Special Accounts



                                       Table of Contents 

 Purpose...........................................................................................................................    1        


 Background ....................................................................................................................       1        


 Noteworthy Achievements …………………………………………………………………..                                                                                  2


 Scope and Methodology ...............................................................................................                 2        


 Results of Review ..........................................................................................................          3        


 Recommendations .........................................................................................................             5        


 Agency Response ……………………………………………………. ................................                                                                5


 Status of Recommendations and Potential Monetary Benefits.................................                                            6




 Appendices 

 A       Details on Scope and Methodology ....................................................................                         7        


 B       Recommended Accounting Adjustments ...........................................................                                9        


 C       Distribution……………………………………………………………………………….                                                                                  10    

                                                                                      10-P-0093 



Purpose

The purpose of this audit was to determine whether the U.S. Environmental Protection Agency
(EPA) is effectively managing funds advanced from federal agencies. The objectives of our
review were to determine:

   •	 EPA’s policies, procedures, and practices for managing amounts advanced from federal
      agencies.
   •	 The current balances of advances from federal agencies that could potentially be used in
      lieu of appropriated funds.

Background
EPA receives advance funding from federal sources through interagency agreements (Advance
IAs) and Superfund Special Accounts (SAs). Approximately $60 million for Advance IAs and
$28 million for federal SAs remained outstanding as of September 30, 2009.

Federal Advances

The EPA Office of the Chief Financial Officer (OCFO) defines IAs as agreements in which EPA
provides goods or services to another federal agency or to a State or local government and is
reimbursed for its expenses. EPA records advances from other agencies for Advance IAs in
general ledger (GL) account 2315 – Other Advances, Federal. This account establishes EPA’s
liability for unearned revenue. The Agency recognizes earned revenue and reduces the liability
when it incurs expenses against the IA.

Federal Special Accounts

Superfund Special Accounts are site-specific, interest-bearing sub-accounts within the Superfund
Trust Fund. The Comprehensive Environmental Response, Compensation, and Liability Act
authorizes EPA to retain and use funds from SAs to address response actions under the Act.
Superfund Special Account Guidance, issued by OCFO on July 16, 2002, establishes financial
management guidance for classifying special account proceeds and provides the accounting
guidelines to separately track amounts retained in Special Accounts. EPA should record
amounts received under a non-federal Cash-Out for future costs to be incurred in fund TR2 –
Non-Federal Special Accounts. Federal Cash-Out settlement costs should be recorded in fund
TR2A – Federal Special Accounts to be incurred in the future. Past cost collections, late
payment interest collections, and interest revenue should be recorded in fund TR2B – Special
Accounts. EPA records Superfund SA advances from other federal agencies in GL account 2316
– Advances, Cash Outs, Federal. The Agency recognizes earned revenue and reduces the
liability when it incurs expenses on SAs.

Federal Trading Partners

Advances from other federal agencies (both IAs and Superfund SAs) are components of
intragovernmental transactions. Intragovernmetal transactions occur between EPA and its


                                               1

                                                                                         10-P-0093 



Federal Trading Partners. EPA reports these transactions in its financial statements in
accordance with Office of Management and Budget Circular No. A-136, Financial Reporting
Requirements, which states: “The intergovernmental assets of an agency are separately reported
on the face of the balance sheet. Non-entity assets, which may be intragovernmental or
governmental (i.e., non-Federal), are separately disclosed in the notes… The intragovernmental
liabilities of an agency are separately classified on the face of the balance sheet.”

Government-wide Reporting Issue

The Treasury Financial Manual requires verifying agencies to confirm and reconcile
intragovernmental transactions with their trading partners. In our Audit of EPA's Fiscal 2009
and 2008 (Restated) Consolidated Financial Statements (Report No. 10-1-0029), issued
November 16, 2009, we noted that EPA reported $183 million in unreconciled differences with
47 trading partners. Of that amount, Treasury reported $51 million as material differences.
Advances from other Agencies are a part of these differences. EPA has difficulty reconciling
these differences, primarily because of differing accounting treatments and accrual
methodologies between federal agencies. For example, when other agencies recognize an
expense when an advance is provided to EPA and EPA does not recognize revenue until the
funds are expended, it creates a timing difference.

Noteworthy Achievements

We identified the following noteworthy achievements related to the management of Advance IAs
and federal SAs:

   •	 The Cincinnati Finance Center (CFC) has improved communication with program offices,
      which has improved the federal IA management, monitoring, and close-out process.
   •	 EPA has developed an SA Senior Management Committee.
   •	 Each region has a lead SA coordinator that serves as a primary point of contact in each
      region for special accounts.

Scope and Methodology
We conducted the audit in accordance with generally accepted government auditing standards,
issued by the Comptroller General of the United States. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our conclusions based on our audit objectives.

We conducted our audit from January 2009 to March 2010. We drew our samples from CFC’s
reports of advance account balances by federal agency at September 30, 2008. These reports
provided the details by federal agency for GL accounts 2315 and 2316. The population of
federal advances GL account 2315 was 47 agreements. The population of federal SAs in GL
account 2316 was 37 sites. We randomly selected 10 federal Advance IA agreements and 10
federal SA samples to review. We interviewed Agency officials from CFC; the Office of Solid
Waste and Emergency Response (OSWER); other program offices; and Regions 2, 3, 6, 7, 8, 9,


                                                 2

                                                                                        10-P-0093 



and 10 to determine the Agency’s policies and practices for managing Advance IAs and SA
funds. We reviewed IAs, consent decrees, SA reports, and Agency financial records to
determine how the Agency uses those funds. Further details on our scope and methodology are
in Appendix A.

Results of Review

A $1.1 million advance to EPA had remained open since 2002 because the Agency had not
completed an accounting adjustment to reclassify appropriated funds to reimbursable funds. The
Agency spent appropriated funds on part of the project. An adjustment was necessary to
reclassify these appropriated expenditures to the reimbursable Superfund appropriation. The
appropriated funds had not been moved to the reimbursable appropriation. The Agency recorded
the adjustment in December 2009.

We also found that three federal SAs included misclassified receipts totaling $2.5 million as of
February 2009. The Agency corrected $2 million during the audit, in February and April 2009.
The Agency established separate fund codes for federal SAs and past costs when it issued its
Superfund Special Account Guidance on July 16, 2002. However, EPA did not reclassify the
funds after EPA issued the guidance. The guidance provides accounting procedures for
recording and tracking SA funds, but does not address spending federal versus non-federal SA
funds. Without clear guidance, programs expended non-federal funds before federal funds when
both SA funds were available. Outstanding federal SAs and misclassified SA funds complicate
EPA’s efforts to reconcile and reduce trading partner differences.

Federal Advances

During the audit, we found an instance where $1.1 million of a $12.5-million advance from the
U.S. Capitol Police remained open because expended appropriated funds had not been
reclassified to the reimbursable appropriation. The obligation was related to a contract to
provide services to the Capitol Police. The project’s performance period was from October 16,
2001, to June 13, 2002. CFC and the program office delayed the deobligation or reclassification
of the advance because they did not follow EPA procedures for closing out the IA. EPA’s policy
is to deobligate remaining funds on an IA when a project is complete. For Advance IAs (funds-
in) the Agency can then close the IA and return the remaining funds to the other agency. Funds
can also be used to reclassify previous site expenditures from appropriated funds. In December
2009, OSWER and CFC reclassified $1.1 million of expenditures from appropriated funds to
reimbursable expenditures as a result of our audit. This allowed for an additional $1.1 million of
appropriated funds to be used for other purposes.

Federal Special Accounts

Settlement funds received under SA authority are placed in interest-bearing SAs to perform
response action work at sites in accordance with terms of the settlement agreement (e.g., consent
decree). The OCFO Superfund Special Account Guidance provides guidance on recording the
billing and collection of funds in SAs. It describes how the funds collected are placed in fund
codes TR2 (non-federal), TR2A (federal), or TR2B (past costs), depending on the agreement.


                                                3

                                                                                         10-P-0093 





We found that while the Agency has guidance on recording SA funds, there is no guidance
describing the protocol for expending amounts from the three funds. EPA should use federal
funds before non-federal funds on sites that have both federal and non-federal funds, to minimize
trading partner differences.

We found three federal SAs that contained receipts and/or expenditures recorded in the wrong
fund code. The Agency has since corrected these entries for two SAs.

       Special Account #026M - Johnny Cake Road Farm. EPA incorrectly recorded
       $505,229 of receipts from the U.S. Marshals Service as non-federal receipts.
       Expenditures totaling about $73,897 were also incorrectly recorded as non-federal
       expenditures, for a total of $579,126. From our analysis of the consent decree and our
       interview with the Region 2 Special Account Coordinator in OSWER, we found that all
       receipts for the Johnny Cake Road Farm SA were from the U.S. Marshals Service and
       should have been recorded as federal receipts. Region 2 recorded the receipts and
       expenditures as non-federal based on the available guidance at the time and did not
       subsequently rerecord them to federal fund codes when the July 2002 SA guidance was
       issued. CFC is currently working with Region 2 to reclassify the entries.

       Special Account #06GW - Tex Tin. EPA recorded receipts for the Tex Tin SA in both
       the federal (TR2A) and non-federal (TR2) fund codes. However, EPA recorded all
       obligations and expenditures for this site in the non-federal fund code. As a result, the
       non-federal fund expenditures exceeded collections, creating a negative balance of
       $1,427,284. Originally, Region 6 had obligated the funds in the non-federal fund code in
       accordance with the guidance in place for SAs at that time. Because Region 6 obligated
       the funds in a non-federal fund, they also expended the funds from the non-federal fund.
       When the guidance changed, Region 6 correctly recorded the federal receipts in the
       federal fund code. Since the disbursements were still recorded in the non-federal fund
       code, the Tex Tin SA was left with the $1,427,284 negative balance in the non-federal
       fund code. Region 6 and CFC correctly adjusted the balances in fund codes TR2 and
       TR2A in April 2009.

       Special Account #07S2 - Hastings Groundwater. EPA originally recorded receipts of
       $223,163 and expenditures of $100,000 from the U.S. Department of Agriculture in the
       federal fund code TR2A. According to the consent decree, the receipts were for past
       costs incurred and not for future response costs at the site. Therefore, these funds should
       have been recorded in fund code TR2B. Region 7 and CFC corrected the entries in
       February 2009.

When the SAs were originally established, only fund code TR2 existed to record both federal and
non-federal SA receipts and expenditures. However, new SA guidance was established in July
2002, which established separate SA funds for Federal Cash-Out Settlement Future Costs
(TR2A), Non-Federal Cash-out Settlement Future Costs (TR2), and Past Costs (TR2B). When
the new guidance was issued, the regions did not initiate corrective actions to have the finance
office reclassify the applicable receipts and expenditures from the non-federal TR2 to the federal



                                                4

                                                                                        10-P-0093 



TR2A SA fund account because the regions were not aware of the distinction between federal
and non-federal SA fund codes. Therefore, the receipts and expenditures remained recorded as
non-federal.

Recommendations
We recommend that the Office of the Chief Financial Officer:

   1.	 Record the $579,126 in federal SAs for the Johnny Cake Road Farm site in the correct
       fund codes.

   2. 	 Request OSWER and the regional Superfund program offices to perform:

          a. 	 A baseline review of consent decrees to verify that special account receipts and
               expenditures are recorded in the proper fund codes.

          b.	 Annual reviews of SAs with negative balances and adjust receipts and/or
              expenditures as necessary.

Agency Response and OIG Evaluation
In a discussion held on March 24, 2010, the Agency concurred with our findings and
recommendations.




                                               5

                                                                                                                                      10-P-0093



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                Planned
    Rec.    Page                                                                                               Completion   Claimed    Agreed To
    No.      No.                         Subject                        Status1         Action Official           Date      Amount      Amount

     1        5     Record the $579,126 in federal SAs for the Johnny       O             Office of the         3/31/11
                    Cake Road Farm site in the correct fund codes.                   Chief Financial Officer

     2        5     Request OSWER and the regional Superfund                O             Office of the         3/31/11
                    program offices to perform:                                      Chief Financial Officer
                      a. A baseline review of consent decrees to
                         verify that special account receipts and
                         expenditures are recorded in the proper fund
                         codes.
                      b. Annual reviews of SAs with negative
                         balances and adjust receipts and/or
                         expenditures as necessary.


     -        -     NOTE: OSWER reclassified $1.1 million of                C     Office of Solid Waste and    7/15/2009     $1,100      $1,100
                    appropriated expenditures to federal advance                   Emergency Response
                    expenditures as a result of our review.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                6

                                                                                        10-P-0093 



                                                                                  Appendix A

                    Details on Scope and Methodology
During our audit, we analyzed the Agency’s process for establishing, monitoring and using
federal advances and SA funds. We reviewed files for federal advance and federal SAs. We
conducted interviews with OCFO and program officials.

GL 2315 Reconciliation: CFC Support to General Ledger Balance (9/30/2008)

A total of $14.7 million for 47 IAs was outstanding in GL 2315 as of September 30, 2008.
We selected a random sample of 10 advances from this population of federal advances. We
reviewed the Advance IAs and interviewed project officers to determine how they manage the
advances. We used Financial Data Warehouse queries and the IA files to determine the financial
status of each advance. The agreements selected were:

Table A-1: Selected Federal Advance Agreements at September 30, 2008
   Agreement #             Advance           Expenses           Amount

RW95939709               $12,500,000.00    ($11,365,311.80)   $1,134,688.20

RW89939695                 4,346,601.67      (2,931,205.88)    1,415,395.79

RW70955756                   937,031.00                   -     937,031.00

RW11948130                   785,500.00        (781,779.42)        3,720.58

RW17939930                   187,900.10        (151,296.27)      36,603.83

RW89922435                   483,432.00        (399,206.20)      84,225.80

RW86922259                     75,000.00        (71,281.95)        3,718.05

RW47921617                   414,318.09        (295,000.00)     119,318.09

RW97922256                     99,800.00        (99,791.09)            8.91

RW19922450                 1,440,000.00        (238,235.38)    1,201,764.62
Source: OIG internally generated data.



GL 2316 Reconciliation: CFC Support to General Ledger Balance (9/30/2008)

A total of $42 million for 37 SAs was outstanding for GL 2316 as of September 30, 2008. We
selected a random sample of 10 sites from this population of SAs. We reviewed the consent
agreements, and interviewed Superfund officials in Regions 2, 3, 6, 7, 8, 9, and 10 to determine
how they manage the special account funds. We used the Financial Data Warehouse, the
OCFO Reporting and Business Intelligence Tool (ORBIT) standard SA checkbook reports, and



                                                    7

                                                                                      10-P-0093


SA by fund code reports to determine the financial status of the federal SAs. The federal SAs
selected were:

Table A-2: Selected Federal SAs at September 30, 2008
           Site Name                           Federal Agency          Site #     Balance
 Johnny Cake Road Farm               U.S. Marshals Service             026M       $72,499.68
 Post Office/Air Force               Post Office/Air Force             03BD        38,580.89
 Tex Tin                             General Services Administration   06GW     2,812,500.00
 Hastings Groundwater                U.S. Department of Agriculture    07S2       123,163.33
 Wellington Mine                     U.S. Forest Service               085F       199,309.48
 Milltown Reservoir                  U.S. Department of Treasury       0823     6,684,508.99
 Midvale Slag                        U.S. Department of Treasury       0871     2,204,946.00
 Newmark Wellfield                   U.S. Department of Justice        09J5     6,500,000.00
 Baldwin Park Unit                   Treasury Judgment Fund            09M4       490,000.00
 Navy                                Navy                              10K3        40,000.00
Source: OIG internally generated data.

Internal Control Structure

In planning and performing our audit, we reviewed management controls related to our audit
objectives. We examined EPA’s Fiscal Year 2008 Federal Managers’ Financial Integrity Act
Annual Assurance Letters issued by the Regional Administrators and Assistant Administrators.
In Fiscal Year 2008, Region 8 identified a finding in the negative available balances by fund
code for the Superfund SAs in Region 8. Region 8 stated corrective actions would be planned by
the end of Fiscal Year 2008 to resolve this issue. As of January 2010, the negative balances had
been corrected. In addition, we examined EPA’s review in compliance with the Office of
Management and Budget Circular A-123, Appendix A, to identify any weaknesses related to
federal advances and SAs. EPA identified no material weaknesses in its A-123, Appendix A,
review of internal controls related to federal advances and federal SAs.




                                                      8

                                                                                         10-P-0093


                                                                                      Appendix B

    Recommended Accounting Adjustments
Table B-1: Johnny Cake Road Farm - SA# 026M
                                    Receipts
                           Current          Reclassify                    Corrected
       Fund                Balance            Amount                       Balance
        TR2                $505,229        ($505,229)                           $0
       TR2A                  72,500              7,500                      80,000
       TR2B                 153,946            497,729                     651,675
       Total               $731,675                 $0                    $731,675
                                  Expenditures
                           Current          Reclassify                    Corrected
       Fund                Balance            Amount                       Balance
        TR2                 $73,897          ($73,897)                           $0
       TR2A                       0              7,500                        7,500
       TR2B                       0             66,397                      66,397
       Total                $73,897                 $0                     $73,897
Source: Agency Financial Records (ORBIT Special Account Report by Fund)




                                           9

                                                                              10-P-0093


                                                                            Appendix C

                                   Distribution
Office of the Administrator
Chief Financial Officer
Assistant Administrator for Solid Waste and Emergency Response
Deputy Chief Financial Officer
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of the Chief Financial Officer
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Acting Inspector General




                                           10 

